Audit Report GR-70-06-003

Bureau of Justice Assistance Safety Equipment Grant 
to the City of New York Police Department, New York, New York

Audit Report GR-70-06-003


January 2006
Office of the Inspector General


Executive Summary





The U.S. Department of Justice (DOJ), Office of the Inspector General, Audit Division, completed an audit of Safety Equipment grant 2003-DD-BX-1026 awarded by the DOJ, Office of Justice Programs (OJP), Bureau of Justice Assistance (BJA), to the City of New York Police Department (NYPD).  The purpose of this grant was to provide personal protective equipment (PPE) kits, including full-face, 
air-purifying respirators and related accessories, to protect police officers responding to hazardous materials incidents.  On 
September 30, 2003, the NYPD was awarded $3,974,000 to provide these PPE kits to 9,935 police officers.

We tested the NYPDs accounting records to determine if reimbursements claimed for costs under the grant were allowable, supported, and in accordance with applicable laws, regulations, guidelines, and terms and conditions of the grant.  We also assessed the NYPDs program performance in meeting grant objectives and overall accomplishments.

We determined that the NYPD is in material noncompliance with grant requirements in the following areas we tested:  (1) reporting, 
(2) expenditures, (3) internal controls, and (4) equipment management.  As a result of the deficiencies, we question $3,974,000, which is the total amount of grant funds received.1
We determined the NYPD did not adequately report to OJP the financial and program status of this grant.  Specifically, the NYPD did not accurately report grant expenditures on one Financial Status Report (FSR), and submitted two other FSRs late.  In addition, the progress report the NYPD submitted was inaccurate, and the NYPD failed to submit two additional progress reports.

We determined the NYPD made $3,974,000 in unallowable grant expenditures for equipment purchased from a single vendor without obtaining sole-source justification approval from OJP and adequately documenting price negotiations.  We also determined the $3,974,000 in equipment expenditures were virtually undocumented.  Overall, we question the entire grant award of $3,974,000 for unallowable and unsupported expenditures.

We determined that the NYPD did not properly manage the equipment purchased with grant funds as the NYPD did not maintain adequate property records and an inventory system for the equipment.

We determined the NYPD did not have adequate internal controls over grant administration.  Because the NYPD considered the grant expenditure confidential, there was little internal control of the authorization and use of funds.  The NYPD also does not have written procedures for reporting grant expenditures and performance.   

We also identified other matters regarding the PPE kits and readiness for use.  We found that filters are not always stored in manufacturer prescribed conditions, filters will be expiring soon, some filters were opened, officers cannot wear eyeglasses with the respirator, and canteens are not available.
  
These items are discussed in detail in the Findings and Recommendations section of the report.  Our audit objectives, scope, and methodology appear in Appendix I.

We discussed the results of our audit with NYPD officials and have included their comments in the report, as applicable.  In addition, we requested a response to our draft audit report from the NYPD and OJP, and their responses appear in Appendices III and IV.

 



Footnotes

The Inspector General Act of 1978, as amended, contains our reporting requirements for questioned costs.  However, not all findings are dollar-related.  See Appendix II for a breakdown of our dollar-related findings and for definitions of questioned costs.